No. 20-637
In the

Supreme Court of the United States
DARRELL HEMPHILL,
Petitioner,
v.
STATE OF NEW YORK,
Respondent.
On Writ of Certiorari
to the Court of Appeals of New York
BRIEF OF UTAH, ARIZONA, ARKANSAS, FLORIDA,
HAWAII, KANSAS, LOUISIANA, MINNESOTA,
MISSISSIPPI, NEBRASKA, NORTH DAKOTA, SOUTH
CAROLINA, and SOUTH DAKOTA AS AMICI CURIAE
IN SUPPORT OF RESPONDENT
SEAN D. REYES
Utah Attorney General

MELISSA HOLYOAK*
Utah Solicitor General

THOMAS B. BRUNKER
Deputy Solicitor General,
Criminal Appeals

CHRISTOPHER D. BALLARD
Deputy Director,
Criminal Appeals

350 N. State Street, Suite 230
P.O. Box 142320
Counsel for Amici Curiae
Salt Lake City, UT 841142320
(801) 538-9600
melissaholyoak@agutah.gov
* Counsel of Record
[ADDITIONAL COUNSEL WITH SIGNATURE BLOCK]

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................... iii
INTEREST OF AMICI CURIAE ............................... 1
SUMMARY OF ARGUMENT.................................... 1
ARGUMENT .............................................................. 4
I.

Constitutional rights can be waived. A
criminal defendant waives his Confrontation
Clause rights—by words or action—when he
strategically distorts the evidentiary picture,
undermining the integrity of his trial’s truthseeking function. .................................................. 4
A. The Confrontation Clause is a shield, not
a sword: it does not give a defendant the
right to present a misleadingly incomplete
evidentiary picture. ......................................... 6
B. A criminal defendant can be deemed to
have waived his Confrontation Clause
rights. ............................................................. 12
C. Testimonial hearsay is admissible under
this rule based on a defendant’s strategic
waiver, not an exception to the
Confrontation Clause. ................................... 14

ii
II. A waiver finding would be permitted only
when (1) the defendant strategically creates
an evidentiary misimpression by disclosing
only a partial evidentiary picture on a
particular point, (2) testimonial hearsay is
reasonably necessary to complete the picture
and thus correct the misimpression, and (3)
the hearsay declarant is unavailable. ............... 17
III. Other jurisdictions’ approaches to addressing
strategically created evidentiary
misimpressions are insufficient to guarantee a
court’s ability to safeguard the integrity of a
trial’s truth-finding purpose. ............................. 23
IV. The arguments from Petitioner and his amici
against a waiver-based rule are unpersuasive. ..... 29
CONCLUSION ......................................................... 33

iii
TABLE OF AUTHORITIES
FEDERAL CASES

Barber v. Page,

390 U.S. 719 (1968) .............................................. 19

Berghuis v. Thompkins,

560 U.S. 370 (2010) .............................................. 25

Bullcoming v. New Mexico,

564 U.S. 647 (2011) ................................................ 7

Crawford v. Washington,

541 U.S. 36 (2004) ...................................4, 6, 14, 19

Davis v. Washington,

547 U.S. 813 (2006) ...............................5, 11, 16, 28

Delaware v. Van Arsdall,

475 U.S. 673 (1986) ................................................ 6

Giles v. California,

554 U.S. 353 (2008) .............................................. 15

James v. Illinois,

493 U.S. 307 (1990) .............................................. 17

Jenkins v. Anderson,

447 U.S. 231 (1980) ........................................ 23, 33

Melendez-Diaz v. Massachusetts,

557 U.S. 305 (2009) .......................................... 7, 12

Moss v. Hofbauer,

286 F.3d 851 (6th Cir. 2002) ................................ 30

Nix v. Whiteside,

475 U.S. 157 (1986) ................................................ 4

iv

Ohio v. Roberts,

448 U.S. 56 (1980) ................................................ 19

United States v. Acosta,

475 F.3d 677 (5th Cir. 2007) ............................ 8, 20

United States v. Cromer,

389 F.3d 662 (6th Cir. 2004) ................................ 10

United States v. Holmes,

620 F.3d 836 (8th Cir. 2010) ...................... 9, 10, 27

United States v. Lopez-Medina,

596 F.3d 716 (10th Cir. 2010) .................... 6, 25, 26

United States v. Moussaoui,

382 F.3d 453 (4th Cir. 2004) ................................ 24

United States v. Olano,

507 U.S. 725 (1993) ................................................ 5

United States v. Sine,

493 F.3d 1021 (9th Cir. 2007) ........................ 15, 18

United States v. Teague,

953 F.2d 1525 (7th Cir. 1992) .............................. 13

United States v. Tirado-Tirado,

563 F.3d 117 (5th Cir. 2009) ................................ 19

United States v. Van De Walker,

141 F.3d 1451 (11th Cir. 1998) ............................ 12

United States v. Webber,

208 F.3d 545 (6th Cir. 2000) .......................... 13, 14

United States v. Yono,

605 F.3d 425 (6th Cir. 2010) .......................... 12, 13

v
STATE CASES

Freeman v. State,

765 S.E.2d 631 (Ga. App. 2014) ........................... 26

People v. Merritt,

411 P.3d 102 (Colo. App. 2014) ............................ 24

People v. Reid,

971 N.E.2d 353 (N.Y. 2012).............................. 8, 19

People v. Vines,

251 P.3d 943 (Cal. 2011), cert. denied, 565 U.S.
1204 (2012) ........................................................... 24

State v. Brooks,

264 P.3d 40 (Haw. App. 2011) .............................. 24

State v. Fisher,

154 P.3d 455 (Kan. 2007) ..................................... 24

State v. Prasertphong,

114 P.3d 828 (Ariz. 2005), cert. denied, 546 U.S.
1098 (2006) ........................................................... 24

State v. Selalla,

744 N.W.2d 802 (S.D. 2008) ................................. 24

State v. White,

920 A.2d 1216 (N.H. 2007) ......................... 9, 15, 18

Wells v. State,

319 S.W.3d 82 (Tex. App. 2010) ........................... 24
OTHER AUTHORITIES

James W. McElhaney, The Cross-Exam Minefield,
ABA J., Dec 2000 .................................................. 30

INTEREST OF AMICI CURIAE

Amici states conduct the vast majority of criminal

prosecutions in this country and therefore have a
substantial interest in the integrity of those
prosecutions. The question presented here asks
whether a criminal defendant can strategically open
the evidentiary curtain only partway, then use the
Confrontation Clause to prevent his jury from seeing
the additional evidence necessary to avoid creating a
misleading impression of the facts, because the
evidence that remains behind the curtain is
testimonial hearsay. Amici states have a compelling
interest in seeing that the Confrontation Clause
remains a tool for discovering, not obscuring, truth.
SUMMARY OF ARGUMENT
A trial is fundamentally a search for the truth.
Criminal defendants should not be able to subvert
that search by presenting an incomplete and
therefore misleading evidentiary picture, then
exclude under the Confrontation Clause testimonial
hearsay that is necessary to complete the evidentiary
picture and correct the misimpression. The Clause’s
procedural guarantee of cross-examination is not an
end in itself. Rather, it is one of many means for
achieving the ultimate end of a reliable result at trial.
The framers could not have intended that the
requirement for cross-examination be honored at the
cost of thwarting a trial’s fundamental truth-seeking

2
purpose. This Court should therefore hold that in an
appropriate case, a defendant waives his
Confrontation Clause rights to exclude testimonial
hearsay whenever (1) he strategically creates a
misleadingly incomplete evidentiary picture at his
trial, (2) testimonial hearsay is reasonably necessary
to correct the defense-created misimpression, and (3)
the declarant is unavailable.
Preventing the prosecution from introducing
evidence necessary to address a defense-created
misimpression gives defendants an unjust windfall.
While many courts recognize the need to admit
testimonial hearsay to address misimpressions, many
do so on grounds that are either too broad or too
narrow. A rule that permits a finding of a waiver even
when a declarant is available to testify is too broad.
Other jurisdictions have admitted testimonial
hearsay only if a defendant expressly waived his
confrontation rights. But that standard fosters
gamesmanship. All a defendant need do is
strategically introduce the misleadingly incomplete
evidence, then lodge a Confrontation Clause
objection, disclaiming any intent to waive his
confrontation rights, when the prosecution seeks to
admit the testimonial hearsay necessary to address
the misimpression.
Some jurisdictions have admitted testimonial
hearsay only under the evidentiary rule of
completeness, or equivalent equitable principles. But

3
those admissibility principles are narrow, and thus
inadequate when the corrective testimonial hearsay
is not covered by them.
Consequently, the rule that best protects a trial
court’s ability to preserve the integrity of a trial’s
truth-finding purpose, is a rule that allows a trial
court, when necessary, to find that a defendant has
waived his Confrontation Clause rights because he
strategically created an incomplete and therefore
misleading evidentiary picture that testimonial
hearsay from an unavailable witness is reasonably
necessary to correct.

4
ARGUMENT
I.
Constitutional rights can be waived. A criminal
defendant waives his Confrontation Clause rights—
by words or action—when he strategically distorts the
evidentiary picture, undermining the integrity of his
trial’s truth-seeking function.
“[T]he very nature of a trial [i]s a search for
truth.” Nix v. Whiteside, 475 U.S. 157, 166 (1986).
The Confrontation Clause generally furthers this end
because “the Clause’s ultimate goal is to ensure
reliability of evidence.” Crawford v. Washington, 541
U.S. 36, 61 (2004). And it prescribes that in the usual
case, the best way to achieve that reliability is by
limiting the testimonial evidence presented at trial to
evidence that is tested “in the crucible of crossexamination” conducted by the party against whom it
is offered. See id.
But a criminal defendant’s strategic decisions at
trial can put the Confrontation Clause’s usual means
of testing reliability of specific testimonial evidence in
tension with a trial’s general truth-finding purpose.
This can happen when a criminal defendant chooses
to create a misleading evidentiary picture by
introducing only part of the evidence on a particular
point, and then asserting his Confrontation Clause
rights to exclude the testimonial hearsay necessary to
complete the picture and avoid the misimpression.

5
There are various ways to resolve this tension.
But one the Court should allow is to permit a trial
court, in the appropriate circumstance, to deem a
defendant to have waived his Confrontation Clause
right to exclude testimonial hearsay. This remedy
should be available only when testimonial hearsay
from an unavailable witness is reasonably necessary
to complete the evidentiary picture and thus avoid a
false impression that the defendant strategically
created.
This Court should reject Petitioner’s attempt to
secure a rule that would allow defendants to use the
Confrontation Clause to manipulate the evidentiary
picture in a way that subverts a trial’s truth-finding
process. As this Court has recognized, “Crawford …
did not destroy the ability of courts to protect the
integrity of their proceedings.” Davis v. Washington,
547 U.S. 813, 834 (2006) (declaring that Crawford did
not abolish common-law forfeiture-by-wrongdoing
exception to Confrontation Clause). 1

As written, the question presented asks whether a
defendant “forfeits,” rather than waives, his Confrontation
Clause rights. Pet. Br. i. “[F]orfeiture is the failure to make the
timely assertion of a right,” while “waiver is the intentional
relinquishment or abandonment of a known right.” United
States v. Olano, 507 U.S. 725, 733 (1993) (quotation simplified).
Because the rule proposed in this brief depends on a defendant’s
having strategically created an evidentiary misimpression, the
Amici states believe that waiver is the more fitting label.
1

6
A. The Confrontation Clause is a shield, not a
sword: it does not give a defendant the right
to present a misleadingly incomplete
evidentiary picture.
The Confrontation Clause is not an end in itself.
Rather, it is one of many means that contribute to
achieving the ultimate end of ensuring the integrity
of a trial’s truth-finding process. But the Clause’s
“command[]” that reliability be determined through
the procedural guarantee of cross-examination,
Crawford, 541 U.S. at 61, must yield to a waiver of the
right if a trial court determines that testimonial
hearsay is reasonably necessary to correct a
strategically created misimpression. The framers
could not have intended that the Clause’s procedural
guarantee of cross-examination be honored at all
costs, especially when the defendant has put the
integrity of the trial’s truth-finding purpose in peril.
As this Court has recognized, “[t]rial judges retain
wide latitude” to reasonably limit a defendant’s right
to cross-examination “based on concerns about,
among other things … confusion of the issues.”
Delaware v. Van Arsdall, 475 U.S. 673, 679 (1986).
“The Confrontation Clause is a shield, not a
sword.” United States v. Lopez-Medina, 596 F.3d 716,
732 (10th Cir. 2010). Thus, when a defendant
strategically creates a misimpression by revealing
only a partial evidentiary picture, he should not be
able to use the Confrontation Clause to exclude

7
testimonial hearsay that is reasonably necessary to
complete the picture. Instead, trial courts should have
as one option the ability to rule that the defendant has
waived his right to exclude the corrective testimonial
hearsay.
Suppose that police find fingerprints in a home
where a young girl is murdered. A report from an
automated fingerprint identification system identifies
five suspects as possible matches. A fingerprint
examiner then compares the recovered prints with
the possible suspects and determines that the prints
match one of those suspects, later discovered to be the
only one of the five who is a convicted sex offender and
who lives near the victim’s home. Police arrest that
suspect and additional investigation builds a strong,
but circumstantial, case against him.
Two weeks before trial, the fingerprint examiner
dies unexpectedly. The prosecution thus expeditiously
arranges for a new fingerprint examiner to analyze
the prints because the Confrontation Clause bars
admitting the original examiner’s report. See
Bullcoming v. New Mexico, 564 U.S. 647, 661 (2011);
Melendez-Diaz v. Massachusetts, 557 U.S. 305, 311
(2009).
But while cross-examining the new fingerprint
examiner at trial, the defendant elicits that the
examiner conducted her analysis only two weeks
before trial, after defendant’s sex-offender status was
discovered, and after the State had built the rest of

8
the case against him. The defendant then uses this
fact to bolster his defense that the police targeted him
solely because he was the only registered sex offender
living near the victim’s home, then tailored their
investigation to build a case against him.
Under the Petitioner’s proposed rule here, if the
prosecution sought to counter this misleading version
by introducing the first examiner’s report, the trial
court would have to exclude the corrective evidence in
the face of a Confrontation Clause objection. The
defendant’s false narrative would stand and unfairly
strengthen his defense.
But a defendant should not be able to use the
Confrontation Clause to strategically mislead his
jury. Rather, in this circumstance, a trial court should
be allowed, as one potential remedy, to conclude that
a defendant waived his Confrontation Clause rights
when he strategically created an evidentiary
misimpression that testimonial hearsay from an
unavailable witness is reasonably necessary to
correct.
The Fifth Circuit, New York, and New Hampshire
already recognize this. See United States v. Acosta,
475 F.3d 677, 684-85 (5th Cir. 2007) (defendant’s false
“insinuations” opened door to otherwise inadmissible
testimonial hearsay); People v. Reid, 971 N.E.2d 353,
357 (N.Y. 2012) (“[T]he Confrontation Clause cannot
be used to prevent the introduction of testimony that
would explain otherwise misleading out-of-court

9
statements introduced by the defendant.”); State v.
White, 920 A.2d 1216, 1221-22 (N.H. 2007)
(recognizing that defendant can open the door to
otherwise inadmissible testimonial hearsay by
creating “a misleading impression”). These
jurisdictions have correctly concluded that a
defendant can open the door to otherwise
inadmissible
testimonial
hearsay
when
he
strategically creates a false impression.
In contrast, the Eighth and Sixth Circuits have
allowed defendants to taint the integrity of their
trial’s truth-finding function by strategically creating
a false impression and then using their Confrontation
Clause rights to exclude the testimonial hearsay
necessary to correct that misimpression.

United States v. Holmes, 620 F.3d 836, 842-44

(8th Cir. 2010), provides one example. Holmes’s
counsel argued that Holmes did not live at the house
where several guns were found and that was the
target of a drug investigation. See id. at 840. In
support, counsel cross-examined the investigating
detective so as to suggest that the detective had relied
entirely on an outdated arrest record to connect
Holmes to the house in question. See id. But a
confidential informant had told the detective that
Holmes lived at the house and was selling drugs from
it, and surveillance had verified that tip at least in
part. See id. 839-40. Thus, on redirect, and over
Holmes’s objection, the prosecution asked the

10
detective to recount the informant’s statements about
Holmes’s residence and activities. See id. at 840.
The Eighth Circuit reversed. See id. at 843-44.
Because Holmes did not expressly waive his
confrontation rights, he could rightfully mislead his
jury by painting an incomplete picture of the
detective’s investigation and then use the
Confrontation Clause to prevent the prosecution from
completing that picture. Id. at 844.
Similarly, in United States v. Cromer, 389 F.3d
662, 678-79 (6th Cir. 2004), the defendant’s crossexamination of the detective suggested that the
physical description provided by a confidential
informant did not match the defendant. Id. at 667-68.
On redirect, the prosecution asked the detective for
additional details of the informant’s description. Id.
The Sixth Circuit reversed, holding that the
defendant’s “foolish strategic decision” to open the
door to the testimonial hearsay did not amount to a
forfeiture of defendant’s Confrontation Clause rights.
Id. at 679. But under Cromer, defendant’s strategy
was anything but foolish. Instead, the defendant
could properly mislead the jury with an incomplete
version of the facts that the prosecution could not
refute.
The facts in Petitioner’s case provide yet another
example of how defendants can mislead a jury unless
a trial court can find a waiver of confrontation rights.
Petitioner created the misleading impression that

11
Morris possessed a 9-millimeter handgun (the murder
weapon). But a variation of the facts presents an even
more compelling need for such a rule.
Suppose that instead of declaring only that he
possessed a .357 handgun at the murder scene, an
unavailable Morris had also declared that he never
owned or possessed a 9-millimeter handgun and that
it was Petitioner who had left the live 9-millimeter
round on Morris’s nightstand. Suppose further that at
this hypothetical trial, Petitioner strategically elicits
the same testimony that he did at his actual trial—
that police found a live 9-millimeter round on Morris’s
nightstand. Petitioner then again argues this fact as
compelling evidence that Morris, not Petitioner, was
the shooter. If the trial court cannot find that
Petitioner waived his confrontation rights by
strategically creating a misleadingly incomplete
narrative about whether Morris possessed a 9millimeter handgun, then Petitioner is free to mislead
his jury by keeping critical evidence from it.
The Constitution was not intended to secure these
untrustworthy outcomes. “Crawford … did not
destroy the ability of courts to protect the integrity of
their proceedings.” Davis, 547 U.S. at 834. Yet
Petitioner’s rule would encourage such results.
Defense counsel are (and should be) motivated to
create instances of doubt. But a trial’s truth-finding
purpose must limit how far they can go. Under
Petitioner’s rule, defense counsel would seek

12
opportunities to create misleadingly incomplete
narratives that could only be refuted with testimonial
hearsay because the Confrontation Clause would
block the evidence necessary to complete the story.
That rule goes too far.
B. A criminal defendant can be deemed to have
waived his Confrontation Clause rights.
The rule the Amici states propose is grounded in
the well-established principle that a defendant can
waive his constitutional rights. “The
right
to
confrontation may, of course, be waived.” MelendezDiaz v. Massachusetts, 557 U.S. 305, 313 n.3 (2009).
And such a waiver need not be express or require an
on-the-record colloquy, because whether to waive
confrontation rights is a critical component of trial
strategy that should be left to the defendant and his
counsel.
For example, a defendant’s decision whether to
waive his Fifth Amendment right against selfincrimination at trial need not be express. Rather, as
“federal circuit courts consistently have held,” a trial
court has no duty to obtain an express waiver of a
defendant’s right to testify, or his converse right not
to testify, at his trial. United States v. Van De Walker,
141 F.3d 1451, 1452 (11th Cir. 1998) (collecting
cases). See also United States v. Yono, 605 F.3d 425,
426 (6th Cir. 2010) (“[A] colloquy into the defendant’s
waiver of his right not to testify might impede the

13
defendant’s right to testify and, therefore, not only is
not required, but is inadvisable.”).
Because decisions about the right to testify are of
“tremendous strategic importance,” United States v.
Teague, 953 F.2d 1525, 1532 (7th Cir. 1992), those
decisions are best left to the defendant and his
counsel, see Yono, 605 F.3d at 426. A defendant and
his counsel must be free to strike the delicate balance
between testifying or remaining silent. Is the
defendant’s story from his own lips so important that
the risk of damaging cross-examination is worth it?
Or will a defendant be better off holding his tongue to
avoid that cross-examination and instead rely on
other sources to tell his story, or rely on weakening
the state’s case by other means?
This decision will depend on an intricate and
imprecise multi-faceted assessment of many factors
including the believability of the state’s case, gaps in
its investigation, how the defendant may present to
the jury, and so on. But “a sua sponte inquiry from the
trial judge regarding the defendant’s choice to testify
might impede on an appropriate defense strategy,
might lead the defendant to believe that defense
counsel
has
been
insufficient,
or
might
inappropriately influence the defendant to waive the
Fifth Amendment right not to testify.” United States
v. Webber, 208 F.3d 545, 551 (6th Cir. 2000).
So too with decisions about whether waiving
confrontation rights is worth advancing a superior

14
defense strategy. Whether to elicit testimony or
introduce evidence that opens the door to otherwise
inadmissible testimonial hearsay is a decision best
left to the defendant and his counsel. As with the
decision about whether a defendant should waive his
right to silence and testify, requiring an express
waiver
of
the
confrontation
right
would
inappropriately interfere with the inherently
strategic decision about whether it is worth opening
the door to testimonial hearsay. See id.
C. Testimonial hearsay is admissible under this
rule based on a defendant’s strategic waiver,
not an exception to the Confrontation Clause.
1. This rule is not an exception to the
Confrontation Clause. Rather, it is based on a
defendant’s decision to waive his confrontation rights.
The rule is triggered only by a defendant’s intentional
strategic decision to elicit testimony or introduce
evidence that is incomplete and therefore creates a
misimpression about a specific factual point. Thus, as
Petitioner observes, “mere relevance” would never be
enough “to overcome a Confrontation Clause
objection.” Pet. Br. at 17. Nor would a defendant’s
confrontation rights be subject to the “vagaries of the
rules of evidence,” Crawford, 541 U.S. at 61, as
Petitioner contends, Pet. Br. 16. Rather, a defendant’s
intentional decision about the evidence he elicits or
argument he makes determines whether he waives
his confrontation rights.

15
Moreover, a defendant would not waive his
confrontation rights merely by maintaining his
innocence or asserting a general defense theory that
contradicted the prosecution’s theory or evidence.
“Presenting a theory of the case that can be effectively
rebutted by otherwise-inadmissible evidence … does
not by itself open the door to using such evidence; only
partial, misleading use of the evidence itself can do
so.” United States v. Sine, 493 F.3d 1021, 1038 (9th
Cir. 2007) (concluding that defendant did not open the
door to inadmissible hearsay). Or as the New
Hampshire Supreme Court has recognized, a
defendant waives his confrontation rights only when
he “introduce[s] evidence that provides a justification,
beyond mere relevance, for the opponent’s
introduction of evidence that may not otherwise be
admissible.” White, 920 A.2d at 1221-22.
2. This waiver-based rule is distinct from the
common-law forfeiture-by-wrongdoing exception, but
shares some of its characteristics. The forfeiture-bywrongdoing doctrine is a Confrontation Clause
exception that existed at the founding. See Giles v.
California, 554 U.S. 353, 358-59 (2008). It admits
testimonial hearsay from an unavailable witness
when the defendant made that witness unavailable,
but only if the defendant acted with the specific intent
to prevent the witness from testifying. See id. at 35961.

16
The exception operates to prevent the
Confrontation Clause from giving a “criminal a
windfall.” Davis v. Washington, 547 U.S. 813, 833
(2006). “[W]hen defendants seek to undermine the
judicial process by procuring or coercing silence from
witnesses and victims, the Sixth Amendment does not
require courts to acquiesce.” Id. While not required to
help the prosecution prove their guilt, “defendants …
do have the duty to refrain from acting in ways that
destroy the integrity of the criminal-trial system.” Id.
This Court therefore recognized in Davis that
“Crawford, in overruling Roberts, did not destroy the
ability of courts to protect the integrity of their
proceedings.” Id. at 834.
A waiver-based rule triggered by a defendant
strategically creating a misleading evidentiary
picture serves a similar end. It provides a useful tool
for trial courts “to protect the integrity of their
proceedings,” and thereby denies a windfall to
defendants who strategically seek to mislead their
jury. See id. at 833-34. But as explained, unlike the
forfeiture-by-wrongdoing doctrine, this waiver-based
rule is not an exception to the Confrontation Clause.
It would apply only when a defendant waives his
confrontation rights by affirmatively creating the
need to avoid a misimpression by completing the
evidentiary picture with testimonial hearsay from an
unavailable witness. And even then, it would be only
one tool the trial court could use to correct the
misimpression.

17
II.
A waiver finding would be permitted only when (1)
the defendant strategically creates an evidentiary
misimpression by disclosing only a partial evidentiary
picture on a particular point, (2) testimonial hearsay
is reasonably necessary to complete the picture and
thus correct the misimpression, and (3) the hearsay
declarant is unavailable.
Contrary to Petitioner’s assertion, this waiver
rule would not “‘chill some defendants from
presenting their best defense’—or even ‘any defense
at all.’” Pet. Br. 33-34 (quoting James v. Illinois, 493
U.S. 307, 314-15 (1990)). Rather, this rule would chill
only a defendant’s ability to paint a misleadingly
incomplete evidentiary picture, then excluding the
testimonial hearsay reasonably necessary to complete
the picture. A waiver finding would be available only
in narrow circumstances to address specific
evidentiary points and would not be a trial court’s
only means for addressing an evidentiary
misimpression.
A. A waiver finding would not be available merely
because a defendant asserted his innocence or argued
a defense theory that contradicted the prosecution’s
evidence either generally or on a specific point.
Rather, a waiver finding should be permitted only
when (1) the defendant strategically creates an
evidentiary misimpression by disclosing only a partial
evidentiary picture on a particular point, (2)

18
testimonial hearsay is reasonably necessary to
complete the picture and thus correct the
misimpression, and (3) the hearsay declarant is
unavailable.
1. A trial court must first find that a defendant
strategically created the evidentiary misimpression.
A waiver finding should not be based on inadvertently
elicited misleading evidence, because the defendant
does not intend to mislead his jury in that
circumstance. And as explained below, other
remedies like striking the misleading evidence and
instructing the jury to disregard it should usually
suffice to cure any harm from isolated, inadvertent
statements or arguments.
Nor, as explained, should testimonial hearsay’s
mere relevance be sufficient to support a waiver
finding. See Sine, 493 F.3d at 1038 (holding that
misleading use of evidence itself, not mere
presentation of defense theory, can open door to
testimonial hearsay); White, 920 A.2d at 1221-22
(holding that defendant’s evidence or argument must
provide justification “beyond mere relevance” for
admission of testimonial hearsay). Rather, the
hearsay must be relevant to completing the jury’s
view of a specific evidentiary point.
2. The testimonial hearsay must also be
reasonably necessary to address the strategically
created misimpression. If a trial court could correct a
misimpression without admitting testimonial

19
hearsay, that course would be preferrable. Again, as
explained below, striking the misleading evidence
and giving a curative instruction may often be an
adequate tool to correct a misrepresentation.
3. Finally, for testimonial hearsay to be
admissible, the hearsay declarant should also have to
be unavailable. A witness is “‘unavailable’” for
Confrontation Clause purposes if the “‘prosecutorial
authorities have made a good-faith effort to obtain his
presence at trial.’” Ohio v. Roberts, 448 U.S. 56, 74
(1980) (quoting Barber v. Page, 390 U.S. 719, 724–25
(1968)), overruled on other grounds by Crawford, 541
U.S. 36. The prosecution bears the burden of showing
unavailability. See id. A “‘good faith effort’ …
demands much more than a merely perfunctory effort
by the government,” but “[t]he inevitable question of
precisely how much effort is required” must be
resolved on a case-by-case basis. United States v.
Tirado-Tirado, 563 F.3d 117, 123 (5th Cir. 2009)
(quotation simplified).
The rule the Amici states propose incorporates
but builds on rules from other courts. The New York
opening-the-door rule at issue here for admitting
testimonial hearsay looks at a two-fold inquiry: (1)
“whether, and to what extent, the evidence or
argument said to open the door is incomplete and
misleading, and [(2)] what if any otherwise
inadmissible evidence is reasonably necessary to
correct the misleading impression.” See People v.

20

Reid, 971 N.E.2d 353, 357 (N.Y. 2012). But this rule

does not expressly require that the hearsay declarant
be unavailable.

And the Fifth Circuit has held that a defendant
can open the door to testimonial hearsay even when
the declarant is available. See United States v.
Acosta, 475 F.3d 677, 679-80, 684-85 (5th Cir. 2007).
The trial court in Acosta admitted testimonial
hearsay even though the declarant had previously
testified at the trial. See id.
But a defendant should be deemed to waive his
confrontation rights only if the hearsay necessary to
remedy his strategically created misimpression comes
from an unavailable declarant. If the declarant is
available to testify, then a defendant should be able
to demand that the prosecution call the declarant as
a witness. As stated, the founders prescribed how
testimonial reliability should generally be tested—
through cross-examining the witness. The waiver
should not extend to circumstances where the
preferred testing procedure is still available.
B. A waiver finding need not be the sole—or even
the preferred—tool for addressing a defense-created
misimpression. Rather, a trial court should often be
able to address a minor or inadvertently created
misimpression by striking the misleading evidence or
argument and instructing the jury to disregard it. At
the other end of the spectrum, a mistrial may be
required if a trial court finds that the misimpression

21
cannot be adequately remedied by a curative
instruction, or the potential unfair prejudice from
introducing the testimonial hearsay necessary to
correct the misimpression would be too great, or
because of some combination of these factors.
But these should not be the only remedies
available to trial courts faced with defense-created
misimpressions. A misimpression may be significant
enough that striking the misleading evidence and
instructing the jury to disregard it will not be a
sufficient cure. Yet the potential impact of the
misimpression may not be so great as to require a
mistrial. Or a mistrial may be an inadequate remedy
for other reasons, like the number and location of
witnesses who are difficult to gather for a trial.
Choosing the appropriate remedy for issues that arise
at trial is precisely the task our justice system has
long entrusted to trial judges to manage the many
varied situations they face. One available remedy
should be that a trial court may find that a defendant
waived his confrontation rights and thereby opened
the door to the admission of testimonial hearsay from
an unavailable witness.
Or a trial court may require the defense to elect a
remedy, including admitting the testimonial hearsay.
Counsel may reasonably conclude that presenting
evidence that may create a misimpression and risk
opening the door to testimonial hearsay will produce
a net gain.

22
This case is a prime example. Counsel could
legitimately conclude that introducing evidence that
Morris possessed a live 9-millimeter cartridge—the
same caliber ammunition that killed the child—had a
sufficiently high chance of convincing the jury that he
was the shooter, especially considering that another
witness had placed him at the murder scene, he had
bruises on his knuckles—suggesting that he had
participated in the fight that precipitated the
shooting—some witnesses identified him as the
shooter, and New York originally prosecuted him for
the murder. Pet. App. 3a-4a, 9a; Morris Tr. 209.
Indeed, defense counsel made all of these points
during closing argument. J.A. 2230, 244-50.
In contrast to this evidence, the responsive
testimonial hearsay did little to undermine the thirdparty defense. Testimony that Morris pled guilty to
possessing a .357 handgun at the murder scene did
little to prove he was not the shooter, because his
statement did not foreclose the possibility that he also
possessed and used a 9-millimeter. J.A. 22, 35-36. The
allocution also gave the defense what it needed to
show Morris’s motive to lie about his involvement—
his plea ensured his immediate release from prison.
J.A. 23-30, 36-40. Defense counsel also emphasized
this fact in his closing argument. J.A. 283-86.
When counsel can reasonably conclude that
creating an evidentiary misimpression and thereby
opening the door to testimonial hearsay will produce

23
a net gain for his client, counsel should be allowed to
proceed with that course, and it is not unfair to put
the defense to that choice.
The above-discussed limits cabin a waiver finding
to only those circumstances where testimonial
hearsay is necessary to ensure the integrity of the
truth-finding process. Defendants could still present
their best defense. They would be prevented only from
attempting to mislead their jury by revealing only a
partial evidentiary picture.
And recognizing that a waiver may be the
consequence of putting the missing testimonial
hearsay at issue would not unfairly chill presentation
of a complete defense. The right to present a defense
does not mean that strategic choices must be without
consequence—for example, a defendant cannot
exercise his right to testify, then invoke his right to
remain silent when it’s the prosecution’s turn to
question him. See Jenkins v. Anderson, 447 U.S. 231,
238 (1980).
III.
Other jurisdictions’ approaches to addressing
strategically created evidentiary misimpressions are
insufficient to guarantee a court’s ability to safeguard
the integrity of a trial’s truth-finding purpose.
Some jurisdictions have admitted testimonial
hearsay under rules that are too narrow to ensure
that a trial court can safeguard a trial’s integrity.

24
They have admitted testimonial hearsay only under
the rule of completeness or similar equitable
principles, or only when a defendant expressly waives
his Confrontation Clause rights. But the testimonial
hearsay necessary to correct the misimpression will
often lie outside the narrow confines of the rule of
completeness. And requiring a finding of an express
waiver fosters gamesmanship and thus ultimately
undermines the integrity of the truth-finding process.
A. The Fourth Circuit and seven states allow the
prosecution to introduce the remainder of a
testimonial hearsay statement when the defendant
introduces a portion of that same statement. See
United States v. Moussaoui, 382 F.3d 453, 480-82 (4th
Cir. 2004); State v. Prasertphong, 114 P.3d 828, 83035 (Ariz. 2005), cert. denied, 546 U.S. 1098 (2006);
People v. Vines, 251 P.3d 943, 967-69 (Cal. 2011), cert.
denied, 565 U.S. 1204 (2012), overruled in part on
other grounds by People v. Hardy, 418 P.3d 309, 345
(Cal. 2018); People v. Merritt, 411 P.3d 102, 110 (Colo.
App. 2014); State v. Brooks, 264 P.3d 40, 51 (Haw.
App. 2011); State v. Fisher, 154 P.3d 455, 481-83
(Kan. 2007); State v. Selalla, 744 N.W.2d 802, 814-18
(S.D. 2008); Wells v. State, 319 S.W.3d 82, 93-94 (Tex.
App. 2010). These jurisdictions admit the remainder
of the hearsay testimony under the evidentiary rule
of completeness or similar equitably-based principles.
Testimonial hearsay should be admissible in
these circumstances to remedy the misimpressions

25
created by taking part of a hearsay statement out of
context. But testimonial hearsay can be necessary to
remedy misimpressions that go beyond circumstances
that would traditionally fall into the rule of
completeness, as both this case and the fingerprint
hypothetical described above demonstrate. Neither
circumstance involves a defendant introducing only
part of a hearsay statement. Rather, they both involve
admission of non-hearsay evidence. Even when a
defendant creates a misimpression by introducing
part of a hearsay statement, the corrective
testimonial hearsay may not be part of the same
statement. And even an entire statement admitted by
a defendant may create a misimpression that may
only be corrected by a separate statement that the
rule of completeness would not allow to be admitted.
Thus, the rule of completeness is unjustifiably too
narrow to address the issue.
B. Nor should testimonial hearsay be admissible
only when a defendant expressly waives his
confrontation rights, as the Tenth Circuit has held.
See United States v. Lopez-Medina, 596 F.3d 716,
731-32 (10th Cir. 2010). On the contrary, “[w]aivers
can be established even absent formal or express
statements of waiver.” Berghuis v. Thompkins, 560
U.S. 370, 383 (2010). Thus, a defendant who
understands that he has a right to remain silent but
engages in “a course of conduct indicating waiver” can
be found to have implicitly waived his Fifth
Amendment right to silence. Id. at 384 (quotation

26
simplified). The same should hold true for waiving the
Sixth Amendment right to confrontation.
The Tenth Circuit has held that for a waiver of
confrontation rights to be effective, “it must be clearly
established that there was an intentional
relinquishment or abandonment of a known right.”
Lopez-Medina, 596 F.3d at 731 (quotation simplified).
Lopez-Medina made such a waiver and opened the
door to testimonial hearsay about a confidential
informant’s reliability after his counsel’s crossexamination of the investigating detective suggested
that the informant was unreliable. See id. at 730-33.
Lopez-Medina’s waiver was express because when the
government raised a concern that his counsel’s crossexamination would potentially open the door to
testimonial hearsay, counsel responded, “That’s my
full intention. I don’t care what door we open.” Id.
Those statements, together with the conclusion that
counsel’s decision was a “legitimate trial tactic” that
his client did not oppose, established an “effective
waiver” of Lopez-Medina’s Confrontation Clause
rights. Id. Georgia has a similar rule, requiring a
waiver of confrontation rights to be “clear and
intentional.” See Freeman v. State,765 S.E.2d 631,
638 (Ga. App. 2014).
But requiring such a demanding standard for
waiving confrontation rights invites the kind of
gamesmanship previously discussed—gamesmanship
that will only further enable manipulation and thus

27
taint the integrity of the truth-finding process. If an
express waiver is required, then a defense attorney
can easily create an inaccurate evidentiary picture by
intentionally
introducing
evidence
that
is
misleadingly incomplete, and then, when the
prosecution attempts to usher testimonial hearsay
through the opened door, object on Confrontation
Clause grounds and disclaim any intent to waive his
client’s confrontation rights.
Again, United States v. Holmes, 620 F.3d 836,
842-44 (8th Cir. 2010), is an example. As explained,
counsel’s cross-examination of the investigating
detective there suggested that the detective lacked
evidence about Holmes’s residence that the detective
in fact possessed through a confidential informant’s
statement. Id. at 840. But when the prosecution
sought to correct the misimpression, Holmes’s counsel
objected that admitting the informant’s statement
would violate the Confrontation Clause, and counsel
denied any intent to open the door to testimonial
hearsay during his cross-examination. Id. at 842, 844.
But counsel’s affirmative questioning on crossexamination belied his claim that he did not intend to
open the door to evidence on that subject. A defendant
who strategically creates a misimpression should not
be able to prevent admitting testimonial hearsay
necessary to correct that misimpression merely by
disclaiming any intent to waive her client’s
Confrontation Clause rights. Requiring an express

28
waiver therefore enables gamesmanship and allows
defendants to deliberately sabotage the integrity of
the truth-finding process.
This case, too, is an example. Hemphill repeatedly
asserted that Morris’s testimonial hearsay was
inadmissible (albeit he apparently argued only that
he did not open the door to it, J.A. 385-86, 406). But
he pressed forward with presenting the very evidence
he was warned would make the hearsay admissible.
Tr. 87-91, 767, 771-72, 1027. Knowing where a path
will lead and deliberately taking that path anyway is
a waiver.
*****
Allowing trial courts to correct defense-created
misimpressions only when the rule of completeness
applies, or a defendant expressly waives his
confrontation rights, would allow many juries to still
be misled and would foster gamesmanship. Allowing
trial courts to find—within the limits the Amici states
propose—that a defendant has waived his
Confrontation Clause rights when he strategically
creates a misimpression is a better-tailored approach
because it gives a trial court all of the tools necessary
“to protect the integrity of their proceedings.” See
Davis v. Washington, 547 U.S. 813, 834 (2006)
(discussing forfeiture by wrongdoing).

29
IV.
The arguments from Petitioner and his amici against
a waiver-based rule are unpersuasive.
Petitioner and his amici level several criticisms at
a waiver-based rule, none of which should dissuade
the Court from adopting such a rule.
1. Petitioner argues that a waiver rule would
“permit[] judges to set aside the right to confrontation
by assuming the very thing the Sixth Amendment
sets the rules of evaluating—namely, whether the
prosecution’s allegations are accurate.” Pet. Br. 17.
But the waiver rule proposed here does not require a
judge to find, or even assume the truth of the
responsive hearsay. Nor does the judge have to find or
assume that the defendant’s evidence is false. Rather,
the issue for the trial court is whether the defendant
has strategically revealed only a partial evidentiary
picture, and whether testimonial hearsay is
reasonably necessary to complete the picture in order
to avoid misleading the jury. This still leaves the jury
to sort out where the truth lies.
2. Petitioner also argues that a waiver rule
“makes no sense” because a defendant should not
“lose the right to confront a witness whose testimony
he has never brought into play.” Pet. Br. 33. But when
a defendant strategically reveals only a partial
evidentiary picture and that partial picture is
misleading because of missing testimonial hearsay,
that defendant has directly “brought into play” that

30
testimonial hearsay, even if his evidence was not a
portion of the unavailable declarant’s testimony. As
explained, any other rule allows defendants to corrupt
the integrity of the truth-finding process.
3. Petitioner’s amici suggest that a defendant
would never strategically choose to waive or
otherwise forgo an opportunity to cross-examine a
witness because cross-examination will undoubtedly
strengthen the defense case. National Association of
Criminal Defense Lawyers Br. 12-13 (declaring that
right to confrontation “‘is everything’”). But as
explained, this will not always be the case. Counsel
often choose to forgo cross-examination for any
number of strategic reasons, including that it would
unnecessarily highlight damaging facts. See Moss v.
Hofbauer, 286 F.3d 851, 864 (6th Cir. 2002)
(recognizing counsel’s strategic choice not to crossexamine eye-witness because doing so would have
emphasized defendant’s admission to murder). As one
commentator
warned,
“cross-examination
is
dangerous. It’s a minefield planted with evidence
traps that release prejudicial information. It’s strewn
with contradiction bombs that shower you with
painful corrections. It’s scattered with humiliation
grenades that cover your face with egg.” James W.
McElhaney, The Cross-Exam Minefield, ABA J., Dec
2000, at 68.
This case provides several potential reasons
counsel could reasonably decide to choose admitting

31
known testimonial hearsay rather than venturing
into the minefield of the unknown with crossexamination. Even if Morris had been available to
testify to his plea allocution, counsel could reasonably
decide not to cross-examine him. Again, Morris’s
allocution did not foreclose the possibility that he
owned or had used a 9-millimeter. J.A. 22, 35-36. But
cross-examining him about that fact may have.
Morris may have had additional damaging
information about Petitioner’s involvement in the
murder. He may have also been able to provide
exculpatory reasons for his bruised knuckles and he
may have accused Petitioner of leaving the live 9millimeter round in his apartment. And these are
only the cold-record reasons for sticking with the
testimonial hearsay. Counsel may further conclude
that allowing the jury to see Morris’s demeanor, as
opposed to seeing only his written statement, would
make the jury less likely to believe that Morris
possessed a 9-millimeter handgun.
4. Petitioner and his amici also argue that without
confrontation, a defendant cannot test the hearsay
declarant’s bias. Pet. Br. 22-25; National Association
of Criminal Defense Lawyers Br. 12. But that is not
always true, as this case shows. Petitioner’s counsel
highlighted that Morris’s counsel had told the judge
at Morris’s plea hearing that the prosecution had no
evidence that Morris possessed a .357 handgun, but
pleaded guilty to possessing that gun to secure his
immediate release from custody. J.A. 283-86.

32
Petitioner’s counsel thus implied that one of the facts
New York relied on to try to exculpate Morris and
inculpate Petitioner may have been a falsehood made
to secure a benefit.
There will be many other instances where bias
can be presented without cross-examination. An
alternative suspect will usually have an incentive to
implicate someone else. As here, plea statements and
colloquies will often reveal a quid pro quo that the
defense may exploit to call into question the pleadingdefendant’s veracity.
And even if the defendant’s ability to test bias is
impaired, it is not unfair to put him to the choice of
foregoing that opportunity wholly or partially as the
price of admitting the incomplete evidence he
concludes is beneficial.
5. Finally, Petitioner argues that fairness should
not allow admitting testimonial hearsay in response
to properly admitted defense evidence, even when
that evidence is incomplete and therefore misleading.
Pet. Br. 25-30. He argues that “referring to properly
admitted evidence cannot forfeit a constitutional
right to exclude defective evidence.” Pet. Br. 27.
But as explained, constitutional rights are
intended to further a trial’s fundamental truthseeking function, not undermine it. A defendant
cannot choose to exercise his right to testify at his
trial without simultaneously waiving his Fifth
Amendment privilege against self-incrimination. See

33

Jenkins v. Anderson, 447 U.S. 231, 238 (1980). Due

regard for a trial’s purpose “to ascertain the truth”
demands this result. See id. Likewise, a defendant
cannot strategically reveal an incomplete and
therefore misleading evidentiary picture without, in
the appropriate case, waiving his Sixth Amendment
right to cross-examine an unavailable witness whose
testimony is reasonably necessary to complete the
evidentiary picture.
*****
The Court should hold that when a criminal
defendant strategically creates an evidentiary
misimpression by revealing only an incomplete
evidentiary picture, a trial court may find that he has
waived his Confrontation Clause right to exclude any
testimonial hearsay that is reasonably necessary to
complete the picture and thereby correct the
misimpression.
CONCLUSION
The judgment of the Court of Appeals of New York
should be affirmed.

34
Respectfully submitted.
SEAN D. REYES
Utah Attorney General
MELISSA HOLYOAK
Utah Solicitor General
THOMAS B. BRUNKER
Deputy Solicitor General,
Criminal Appeals
CHRISTOPHER D. BALLARD
Deputy Director, Criminal
Appeals
350 N. State Street, Suite 230
P.O. Box 142320
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov
Attorneys for Amicus Curiae
State of Utah
Dated: August 17, 2021

35
ADDITIONAL COUNSEL
MARK BRNOVICH
Attorney General
State of Arizona
LESLIE RUTLEDGE
Attorney General
State of Arkansas
ASHLEY MOODY
Attorney General
State of Florida
CLARE E. CONNORS
Attorney General
State of Hawaii
DEREK SCHMIDT
Attorney General
State of Kansas
JEFF LANDRY
Attorney General
State of Louisiana
KEITH ELLISON
Attorney General
State of Minnesota

36
LYNN FITCH
Attorney General
State of Mississippi
DOUG PETERSON
Attorney General
State of Nebraska
WAYNE STENEHJEM
Attorney General
State of North Dakota
ALAN WILSON
Attorney General
State of South Carolina
JASON R. RAVNSBORG
Attorney General
State of South Dakota

